No. 20-828
IN THE SUPREME COURT OF THE UNITED STATES
_________________
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
PETITIONERS
v.
YASSIR FAZAGA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONERS, via e-mail and first-class mail, postage
prepaid, this 11TH day of May, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2950 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on May 11, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 11, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief.
If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0828
FEDERAL BUREAU OF INVESTIGATION, ET AL.
YASSIR FAZAGA, ET AL.

AHILAN THEVANESAN ARULANANTHAM
ACLU FOUNDATION OF SOUTHERN
CALIFORNIA
1313 WEST 8TH STREET
LOS ANGELES , CA 90017
213-977-5211
AARULANANTHAM@ACLU-SC.ORG
PETER BIBRING
ACLU OF SOUTHERN CALIFORNIA
140 S. LAKE AVENUE
SUITE 230
PASADENA, CA 81101
213-977-5295
PBIBRING@ACLU-SC.ORG
CATHERINE M.A. CARROLL
WILMER CUTLER PICKERING HALE & DORR
LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6000
CATHERINE.CARROLL@WILMERHALE.COM
ALEXANDER COTE
SCHEPER KIM & HARRIS LLP
800 WEST SIXTH STREET
18TH FLOOR
LOS ANGELES,, CA 90017-2701
213-613-4655
ACOTE@SCHEPERKIM.COM

KATIE MORAN
WILMER CUTLER PICKERING HALE AND
DORR LLP
350 S GRAND AVENUE
SUITE 2400
LOS ANGELES,, CA 90017
213-443-5300
DAN STORMER
HADSELL STORMER KEENY RICHARDSON &
RENICK, LLP
128 NORTH FAIR OAKS AVE.
SUITE 204
PASADENA , CA 91103
626-585-9600
DSTORMER@HADSELLSTORMER.COM

